        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
The Department of Energy's Use of
the Weatherization Assistance
Program Formula for Allocating
Funds under the American Recovery
and Reinvestment Act




OAS-RA-10-13                          June 2010
                                   Department of Energy
                                     Washington, DC 20585
                                            June 11, 2010


MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman
                          Inspector General
SUBJECT:                  INFORMATION: "The Department of Energy's Use of the
                          Weatherization Assistance Program Formula for Allocating Funds
                          under the American Recovery and Reinvestment Act"

BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act) was enacted in February
2009, to strengthen the U.S. economy, create jobs and spur investments in the Nation's energy
future. Under the Recovery Act, the Department of Energy's Weatherization Assistance Program
(Weatherization Program) received about $5 billion, a ten-fold increase over the Fiscal Year
2009 funding, to weatherize over 590,000 homes owned or occupied by low-income persons.

The Department's Office of Energy Efficiency and Renewable Energy (EERE) manages the
Weatherization Program with support from field offices at the National Energy Technology
Laboratory and the Golden Field Office. Through these offices, and based on an allocation
formula published in the Code of Federal Regulations (CFR), the Department awarded
Weatherization funding to all 50 states, the District of Columbia and 5 U.S. territories. The
formula considers a variety of factors and includes a calculation designed to compensate for
climate conditions. Given the risk associated with significant program changes, dramatic
increases in funding and demands related to weatherizing hundreds of thousands of homes, we
have initiated a series of audits to assess the Weatherization Program's ability to effectively
allocate, award and monitor Weatherization funds. This report, one in the series, discusses the
Department’s use of the formula to allocate Recovery Act funds.

RESULTS OF REVIEW

We reviewed the Department's allocation of funds to all Weatherization Program grantees.
While nothing came to our attention to indicate that problems existed with the majority of these
allocations, we identified significant inaccuracies in the allocation of funds to the U.S. territories.
In allocating Weatherization funds to territories, the Department used a different climate factor
than it used for all other grantees, resulting in the territories receiving $17 million less, in
aggregate, than they would have received had a consistent allocation formula been used.

The formula used for allocating funding to all grantees, except the territories, incorporated a
2004 climate factor based on the Energy Information Administration's (EIA) 2001 Residential
Energy Consumption Survey. The Department's formula for the territories, however, used an
outdated 1995 climate factor. As shown in the following table, the Department's decision to use
different factors resulted in the territories receiving less than they would have received had the
same factor been used for all grantees.

                      Weatherization Funding Allocations to the Territories
                                    under the Recovery Act

                                        Allocation         Allocation
                 Territory             Using 1995          Using 2004          Difference
                                      Climate Factor      Climate Factor

        American Samoa                      $719,511            $895,996         ($176,485)
        Guam                              $1,119,297          $1,430,409         ($311,112)
        Northern Marina Islands             $795,206            $997,182         ($201,976)
        Puerto Rico                      $48,865,588         $65,229,615      ($16,364,027)
        Virgin Islands                    $1,415,429          $1,826,259         ($410,830)

        Total                            $52,915,031         $70,379,461      ($17,464,430)

Department officials reported that, because the EIA had not published climate information for
the territories, they used Hawaii's data to allocate Recovery Act funding to the territories. We
were unable to reconcile the Department's statements because our testing revealed that the
Department had, in fact, allocated Recovery Act funding to Hawaii using the 2004 climate factor
and to the territories using the no longer current 1995 factor. The Department's only explanation
for using different factors was that the territories had only begun receiving Weatherization
funding in 2009. We could find no scientific or other documented analyses, or any other logical
basis to support this approach.

Regarding grant allocations, we also found that the Department had not modified the CFR to
reflect updated EIA data. When the CFR was updated in 2009, the 14 year-old factor published
in 10 CFR 440 was not revised. The failure to update the Regulation made it difficult, if not
impossible, for grantees to verify their allocations. In particular, grantees could not use the
formula factors shown in the CFR to estimate their allocation since the Department did not
disclose that certain factors had been updated.

The Department's Weatherization Program was designed to play an important role in achieving
the national goals of creating jobs and reducing energy consumption. As discussed previously,
the Office of Inspector General initiated a series of audits evaluating various aspects of the
Weatherization Assistance Program. In our Special Report on Selected Department of Energy
Program Efforts to Implement the American Recovery and Reinvestment Act (OAS-RA-10-03,
December 2009), we identified challenges including program staffing resources to adequately
monitor and oversee grantees.

Additionally, our Special Report on Progress in Implementing the Department of Energy's
Weatherization Assistance Program under the American Recovery and Reinvestment Act
(OAS-RA-10-04, February 2010), pointed out that many grantees had made little progress in
deploying Recovery Act provided funds and had weatherized few homes. In that report, we


                                                 2
noted that pressure will increase to accelerate the weatherization of homes in a compressed
timeframe. Such a situation may lead to an environment conducive to waste and inefficiency.
Accordingly, we recommended in that report that the Department re-evaluate its monitoring and
staffing plans.

To its credit, the Department informed us that it continues to address the matters discussed in these
reports. For example, the Department reported that as of the end of April it had hired 18 project
officers and another 10 were to be added within the next 60 days. Further, an official noted that
the Department finalized the Weatherization monitoring plan in March 2010. Despite these
accomplishments, the Department continues to face staffing shortages and monitoring challenges.
We will continue to monitor the Department's progress in these areas as part of our ongoing and
planned Recovery Act work.

As a result of not updating the formula and not providing notice to grantees of the basis for
funding decisions, the Department denied the grantees the ability to evaluate the fairness and
accuracy of the awards they received. While we found no indication of mal-intent, this appeared
to undermine the Department’s efforts to ensure transparency and accountability.

RECOMMENDATIONS

To address the particular allocation issue discussed in this report and to help improve the overall
effectiveness of the Weatherization Program, we recommend that the Assistant Secretary for
Energy Efficiency and Renewable Energy:

   1. Review the basis for allocating Recovery Act funding to the territories to determine if
      adjustments are warranted; and,

   2. Revise the Weatherization grant allocation formula in the Code of Federal Regulations to
      reflect current EIA data.

MANAGEMENT COMMENTS

The Department provided a response to our report that included planned actions to address our
recommendations. Specifically, management indicated that it will recalculate the allocations for
the U.S. territories resulting in an increase in their funding for the Weatherization Program. In
addition, management indicated that it would conduct an overall review of the Code of Federal
Regulations section pertaining to the Weatherization Program to determine if changes are
necessary to better reflect the use of data as it is updated and examine the need to propose changes
to the methodologies used to calculate allocations.

Management's response and planned corrective actions are responsive to our recommendations.
Management's comments are provided in their entirety in Attachment 2.
Attachments
cc: Deputy Secretary
    Under Secretary of Energy



                                                  3
Assistant Secretary for Energy Efficiency and Renewable Energy
Chief of Staff
Chief Financial Officer
Director, Office of Risk Management, CF-80
Team Leader, Office of Risk Management, CF-80
Audit Resolution Specialist, Office of Risk Management, CF-80
Audit Liaison, Energy Efficiency and Renewable Energy, EE-3A
Audit Liaison, Golden Field Office
Audit Liaison, National Energy Technology Laboratory




                                          4
                                                                                           Attachment 1


                       OBJECTIVE, SCOPE, AND METHODOLOGY


OBJECTIVE

The objective of this audit was to assess the Weatherization Assistance Program's
(Weatherization Program) ability to effectively allocate, award and monitor weatherization
funds.

SCOPE

This audit was performed between June 2009 and April 2010 at the Department of Energy's
(Department) Headquarters in Washington, D.C.; the National Energy Technology Laboratory
(NETL) in Pittsburgh, Pennsylvania; and, the Golden Field Office (GFO) in Golden, Colorado.

METHODOLOGY

To accomplish the audit objective, we:

       Reviewed applicable laws, regulations, and guidance pertaining to the Weatherization
       Program under the American Recovery and Reinvestment Act of 2009 (Recovery Act);

       Evaluated ongoing efforts to implement the requirements of the Weatherization Program under
       the Recovery Act;

       Analyzed the formula used to allocate Weatherization Program funds to recipients;

       Reviewed current and projected staffing plans for the Weatherization Program; and,

       Held discussions with Department, GFO and NETL personnel to determine current and
       ongoing efforts to implement the requirements of the Weatherization Program under the
       Recovery Act.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our finding and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective. We assessed performance
measures in accordance with the Government Performance and Results Act of 1993 and
determined that performance measures were established for the Weatherization Assistance
Program. Because our review was limited, it would not necessarily have disclosed all internal
deficiencies that may have existed at the time of our audit. We conducted an assessment of
computer generated data and we deemed the data to be sufficiently reliable to achieve our audit
objective.

We held an exit conference with Department officials on June 10, 2010.


                                                  5
                      Attachment 2


MANAGEMENT COMMENTS




         6
    Attachment 2 (continued)




7
                                                                 IG Report No: OAS-RA-10-13

                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
